Report No. D-2008-128         September 10, 2008




     Reimbursable Fees at the Major Range
            and Test Facility Bases
                       Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:
                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AFAA                          Air Force Audit Agency
AFB                           Air Force Base
DTRMC                         Defense Test Resource Management Center
FMR                           Financial Management Regulation
MRTFB                         Major Range and Test Facility Base
IG                            Inspector General
NAVAIR                        Naval Air Systems Command
NAWC-AD                       Naval Warfare Center-Aircraft Division
NAWC-WD                       Naval Warfare Center-Weapons Division
NDAA                          National Defense Authorization Act
.----   .




                                               INSPECTOR GENERAL
                                           DEPARTMENT OF DEFENSE
                                              400 ARMY NAVY DAIVE
                                         ARLINGTON, VIRGINIA 22202--4704




                                                                                  September 10, 2008


            MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                              TECHNOLOGY, AND LOGISTICS
                          UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                          ASSISTANT SECRETARY OF THE AIR FORCE
                          (FINANCIAL MANAGEMENT AND COMPTROLLER)
                          AUDITOR GENERAL, DEPARTMENT OF THE ARMY
                          AUDITOR GENERAL, DEPARTMENT OF THE NAVY

            SUBJECT: Report on Reimbursable Fees at the Major Range and Test Facility Bases
            (Report No. D-2oo8-128)

            We are providing this report for review and comment. We considered comments from
            the Office of the Under Secretary of Defense (Comptroller)-Deputy Chief Financial
            Officer, the Assistant Secretary of the Navy (Financial Management and Comptroller),
            and the Director, Air Force Test and Evaluation when preparing the final report.

            DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
            Deputy Chief Financial Officer's and Assistant Secretary of the Navy (Financial
            Management and Comptroller) comments were responsive to report
            Recommendations A. and B. t respectively. However, comments from the Director,
                                          'J

            Air Force Test and Evaluation regarding report Recommendation B.2. were only partially
            responsive. Therefore, we request additional comments from the Air Force regarding
            Recommendation 8.2. by October 10, 2008.

            Please provide comments that confonn to the requirements of DoD Directive 7650.3. If
            possible, send management comments in electronic format (Adobe Acrobat file only) to
            AUDACM@dodig.mil. Copies of the management comments must have the actual
            signature of the authorizing official for your organization. We cannot accept the
            I Signed I symbol in place of the actual signature. If you arrange to send classified
            comments electronically, you must send them over the SECRET Internet Protocol Router
            Network (SIPRNET).

            We appreciate the courtesies extended to the staff. Questions should be directed to
            Mr. Benjamin A. Mehlman at (703) 604-9291 (DSN 664-9291) or Mr. Michael E.
            Simpson at (703) 604-8972 (DSN 664·8972). The team members arelisted inside the
            back cover.
                                                                                      -
                                                         Richard A. Jolliffe
                                                         Assistant Inspector General
                                                         Acquisition and Contract Management
Report No. D-2008-128 (Project No. D2007-D000AB-0197.000)             September 10, 2008

              Results in Brief: Reimbursable Fees at the
              Major Range and Test Facility Bases
                                                          customers. However, an April 2008
What We Did                                               Under Secretary of Defense
Our overall objective was to determine whether            (Comptroller) revision to FMR
the Reimbursable Fees for DoD Major Range                 7000.14-R has corrected the problem.
and Test Facility Bases (MRTFB) were charged
appropriately in accordance with statutory,         What We Recommend
DoD, and Service requirements.                        •   The Navy agreed with a
We analyzed costs charged to MRTFB                        recommendation that the Commander,
customers for 74 tests at 5 ranges to evaluate            Naval Air Systems instruct the
compliance with DoD Financial Management                  commanders of the Naval Warfare
Regulation (FMR) 7000.14-R and Public Law                 Center-Aircraft Division and the Naval
107-314, Section 232 requirements. These state            Air Warfare Center-Weapons Division
that institutional and overhead costs be fully            to follow FMR 7000.14-R and
funded through “test and evaluation” accounts             discontinue charging range customers
and charges to DoD customers not exceed the               for utilities in buildings used by more
direct cost for the use of the facilities.                than one customer where the charges are
                                                          applied using formulas.
We also performed follow-up at five additional        •   The Office of the Under Secretary of
ranges previously assessed for compliance with            Defense (Comptroller) agreed with a
FMR 7000.14-R requirements regarding cost                 recommendation that FMR 7000.14-R
accounting and billing systems and related                be revised to make consistent references
internal controls by the Defense Test Resource            to Public Law 107-314, Section 232 with
Management Center.                                        regard to space launch activities.
                                                      •   The Air Force stated neither agreement
What We Found                                             nor disagreement with a recommen-
   •   Two Navy ranges were charging                      dation that the Commander, Air Force
       customers indirect labor and utility costs         Space Command issue a range
       because the sites did not use internal             reimbursement policy for space launch
       Navy guidance and were not in                      activities based on FMR 7000.14-R.
       compliance with FMR 7000.14-R.
   •   Two Air Force ranges were applying           Client Comments
       reimbursable fees for space launch             •   We request the Air Force provide further
       services because FMR 7000.14-R                     comments on the recommendation to the
       includes inconsistent language regarding           Air Force Space Command by
       what commercial space activities                   October 10, 2008.
       customers “shall” or “may” reimburse.
   •   Range testing equipment is, in many
       cases, left unused when the primary
       range customer completes a project and
       leaves the facility, even though the test
       equipment could be used by other range
Report No. D-2008-128 (Project No. D2007-D000AB-0197.000)           September 10, 2008

Recommendations Table
Client                         Recommendations              Additional Comments
                               Requiring Comment            Required
Under Secretary of Defense     B.1.                         No
(Comptroller)
Commander, Naval Air Systems   A.                           No
Command
Commander, Air Force Space     B.2.                         Yes
Command

Please provide comments by October 10, 2008.




                                          ii
Table of Contents
Results in Brief                                                            i

Introduction                                                                1

       Objective                                                            1
       Background                                                           1

Finding A. Naval Warfare Centers’ Reimbursement Fee Structure               4

       Recommendation, Client Comments, and Our Response                    8


Finding B. Air Force Space Command’s Launch Reimbursement Fee Structure     9

       Recommendations, Client Comments, and Our Response                   13


Finding C. Single-Use Facility at the Major Range and Test Facility Bases   15

       Client Corrective Action                                             16


Appendices
       A. Scope and Methodology                                             17
              Review of Internal Controls                                   18
       B. Prior Coverage                                                    19

Client Comments

       Under Secretary of Defense (Comptroller)                             21
       Department of the Navy                                               23
       Department of the Air Force                                          24
Introduction
Objective
Our overall objective was to determine whether the Reimbursable Fees for DoD Major
Range and Test Facility Base (MRTFB) sites were charged appropriately in accordance
with statutory, DoD, and Service requirements.

Background
Major Range Test Facility Base System
The MRTFB system is a national asset that is operated and maintained primarily for DoD
test and evaluation support missions under the oversight of the Defense Test Resource
Management Center (DTRMC). The MRTFB consists of nine Army activities, six Navy
activities, seven Air Force activities, and two Defense agencies. These are managed and
operated to provide test and evaluation support to the DoD Components responsible for
developing or operating weapons systems. MRTFBs are also available to commercial
customers and allied foreign governments when a valid requirement for range capabilities
exists. MRTFB missions vary from testing missiles and aircraft to ensuring that electrical
components can survive in various environments. The MRTFB system is designed to
assure the most cost-effective development and testing of materiel, and provide for inter-
Service compatibility, efficiency, and equity without influencing technical testing
decisions or inhibiting legitimate and valid testing.
Prior to FY 2006, costs to test and evaluation customers varied among MRTFB ranges,
because the ranges used different accounting systems. Consequently, DoD managers
could not use comparable data when making investment and funding decisions for the
cost of tests and evaluation services performed at available ranges. For example, DoD
Inspector General (IG) Report D-2004-035, “Major Range Test Facility Base,”
December 8, 2003, noted that Army ranges tracked test costs through two accounting
systems, while the Navy used three accounting systems, and the Air Force used more
than one system. 1

Statutory Requirements
The FY 2003 National Defense Authorization Act (NDAA), Section 232 2 eliminated the
proportional share approach to maintenance of facilities and the practice of passing
inequitable charges to MRTFB test customers. For example, NDAA directed the
Secretary of Defense to establish the objective of ensuring that, by FY 2006, the
institutional and overhead costs of an MRTFB facility or resource of a Military
Department or Defense agency are funded fully from that Component’s major test and

1
  MRTFB accounting systems included: the Army Standard Operation and Maintenance Army Research and
Developmental System, the Army Command Information Management System, the Navy Job Order Cost
Accounting System, the Navy System Application and Products Accounting System, the Navy Business
Information System, the Air Force Job Order Cost Accounting System, and Microbas.
2
  Codified as Public Law 107-314, Section 232.


                                                1
evaluation investment accounts. Section 232 further directed that range test and
evaluation facilities charge DoD customers only for those costs that are “directly
attributable to the use of the facility or resource for testing under a particular program,
over and above the institutional and overhead costs with respect to the facility or
resource.”

DoD Directive and Financial Management Regulation
Requirements
In the past, in some cases, under-funding from the Services led some test facilities to
circumvent the DoD Financial Management Regulation (FMR) and charge test users
inappropriate charges, such as surcharges or general “taxes” to compensate for MRTFB
institutional funding shortfalls. In the 1990s, FMR 7000.14-R, “DoD Financial
Management Regulation,” was changed to allow the charging of incremental costs
required to operate test facilities to test users. As DoD components prioritized funds,
MRTFB institutional operating funds were decreased, resulting in an increase to the costs
charged to the customers.
The Office of the Under Secretary of Defense (Comptroller) developed an MRTFB
charge policy that required strict compliance with section 232 of the NDAA, which was
incorporated into the FMR on September 20, 2005. Specifically, the charge policy
defined MRTFB institutional and overhead costs as the costs of maintaining, operating,
upgrading, and modernizing the facility or resource and did not include any incremental
cost of operating the facility or resource for testing under a particular program. The term
“direct cost,” with respect to a facility or resource within the MRTFB, was defined as
those costs that are directly attributable to the use of the facility or resource for testing
under a particular test over and above the institutional and overhead costs.
DoD Directive 3200.11, “Major Range and Test Facility Base,” December 2007, updated
policy regarding scheduling and funding for the MRTFB sites. This Directive states the
policy and responsibilities for the management and operation of specific DoD test and
evaluation ranges. The Directive also states the MRTFB shall be financed through a
combination of institutional funds and user charges in accordance with the appropriate
provisions of the FMR. In addition, the Directive implements a reimbursement system to
define and collect user charges in accordance with the FMR. For instance, the FMR
states that DoD customers are charged for direct costs that are identified with a particular
program while “indirect costs” for DoD customer programs are funded by the range’s
institutional appropriations. Non-DoD customers are charged for direct costs and some
indirect costs at the discretion of the MRTFB commander.

Defense Test Resource Management Center
DoD Directive 5105.71, “Department of Defense Test Resource Management Center,”
March 8, 2004, and sections 191, 196, and 113, title 10, United States Code established
the DTRMC. The DTRMC plans for and assesses the ability of the MRTFB to provide
testing in support of development, acquisition, fielding, and sustainment of defense
systems. The DTRMC also maintains awareness of other test and evaluation facilities
and resources within and outside the Department and their impacts on DoD requirements.



                                              2
The Director of DTRMC is responsible for providing reports and recommendations on
current and projected MRTFB infrastructure issues to ensure that adequate capabilities
exist to support testing of DoD acquisition programs. Another responsibility of the
director was to ensure that by FY 2006 MRTFB institutional and overhead costs were
fully funded through the Department’s major test and evaluation investment accounts and
only the direct costs for the use of MRTFBs are charged to DoD customers.

According to DTRMC officials, DTRMC contracted with Whitney, Bradley, & Brown,
Inc., to examine nine MRTFB sites and evaluate compliance with the FMR. A contractor
team and a representative from DTRMC visited each of the nine MRTFB sites to review
cost accounting systems, billing systems, and related internal controls. The Director
suspended the contractor assessment visits in May 2007 because of our audit review. We
subsequently visited five of the nine MRTFB sites previously reviewed by Whitney,
Bradley, & Brown, to determine MRTFB compliance with the findings of the
assessments.




                                           3
Finding A. Naval Warfare Centers’
Reimbursement Fee Structure
The Naval Warfare Center-Aircraft Division (NAWC-AD) and the Naval Warfare
Center-Weapons Division (NAWC-WD) were improperly charging test customers for
indirect labor and utility costs. This occurred because NAWC-AD and NAWC-WD were
disregarding internal guidance and not compliant with FMR 7000.14-R, Volume 11A,
Chapter 12, “Major Range and Test Facilities,” (FMR 11A/12). In addition, the Navy
rebuffed Defense Test Resource Management Center (DTRMC) requests to comply with
FMR 7000.14-R charging requirements at one of the MRTFB sites. As a result, in
FY 2006, MRTFB customers were inappropriately charged utility costs of approximately
$1.2 million (21 percent of total utility costs) and approximately $0.2 million in indirect
labor costs that could not be specifically attributed to a customer order.

Naval Air Systems Command Organization
Naval Air Systems Command (NAVAIR) is composed of six organizations that work
together to provide total life cycle support for all naval aviation weapons systems
including research, development, test, evaluation, and training. NAVAIR’s principal
customers are the operating forces of the Navy and Marine Corps, other activities of the
U.S. Armed Forces, and foreign allies. NAWC-AD, Patuxent River, Maryland, and
NAWC-WD in Point Mugu and China Lake, California, are part of the NAVAIR. The
mission of NAWC-AD is to support the Navy by providing the warfighter with
technologies that deliver dominant combat effects with aircraft, avionics, shore, air, and
ship operations. The NAWC-WD mission is to support the Navy by providing the
warfighter with technologies that deliver open air and sea test ranges along with
NAVAIR ground test laboratories that allow the customer to accomplish almost any type
of testing in one deployment. The NAWC-WD’s core capability is integrating a variety
of complex weapons systems and electronic warfare equipment into Navy aircraft.

Naval Air Systems Command Reimbursable Fee Guidance
NAVAIR Instruction 7000, “Naval Air Command Financial Policy Guidance for the
Management and Operation of Direct Products Accounts,” May 10, 2005, discusses the
management and operation of direct product (customer) accounts. It also requires
NAVAIR MRTFB sites to utilize the cost accounting concept of incremental cost
recovery to recover direct costs incurred for the use of the facility or resource in support
of operational testing. Furthermore, NAVAIR Instruction 7000 states that direct product
accounts have been in existence at NAWC-AD for many years and are described as being
advantageous because they align costs by the type of product or service provided to the
customer making the financial results measurable. The Instruction clarifies that, although
the MRTFB direct product accounts operate under charter of the Navy Working Capital
Fund, MRTFB regulations take precedence over the Working Capital Fund policies and
procedures. It further states that the Working Capital Fund should use the cost
accounting concept of “full cost absorption.” The MRTFB is required to utilize the cost
accounting concept of “incremental cost recovery” to recoup direct costs incurred for the
use of the facility or resource in support of operational testing. NAVAIR Instruc-



                                             4
tion 7000 defines direct costs to include labor, material, contractual support, facilities
support, depreciation, and utilities.
NAVAIR Instruction 7000.1, “Aviation Accounting,” February 27, 2006, guides the
implementation of common aviation accounting procedures throughout NAWC-AD and
NAWC-WD and incorporates the FY 2003 NDAA changes outlined in the FMR. The
Instruction states that “only direct user-specific costs associated with operations and
maintenance of MRTFB support aircraft will be charged to DoD users of these aircraft.”
Section III of the Instruction further defines direct costs as costs that are easily and
directly attributable to the use of the resource for testing under a specific program over
and above the institutional costs.

Naval Air Systems Command’s Reimbursable Fee
Practices
NAWC-AD and NAWC-WD are improperly charging customer utility costs. According
to Navy officials at both test ranges, MRTFB customers who require the simultaneous
use of test equipment or facilities are being charged for utilities based on a three-part
formula to apportion utility costs.
NAWC-WD uses square footage along with direct customer workload metrics to
distribute a share of the utility costs to all customers that use numerous resources. When
the three-part formula is applied, first, MRTFB square footage is compared to the total
Command’s square footage. This calculation, along with some unique space engineering
estimates, provides the basis for each MRTFB organization’s total utility bill from the
region. The second calculation provides a percentage of customer workload hours using
a ratio of 36 percent for the customer to 64 percent for the MRTFB. The third calculation
derives the portion of utilities charged to each MRTFB department. For example, in
FY 2007, NAWC-WD utility costs at its China Lake facility was approximately
$5.1 million, of which approximately $1.8 million (36 percent) was charged to customers
and approximately $3.3 million (64 percent) was charged to the MRTFB institutional and
overhead costs. The $1.8 million charged to customers was allocated by the percentage
of the MRTFB that each testing department owns. According to Navy officials, NAWC-
AD uses the same process as NAWC-WD to charge utility costs to its customers. This
process is not in compliance with FMR 11A/12 requirements because the utilities charged
to customers based on these calculations cannot be directly attributed to a single customer
as required by the FMR.
We concluded that NAWC-AD and NAWC-WD utility and workload hour charging
practices appear to have disregarded NAVAIR Instruction 7000.1 guidance, which states
that MRTFB regulations be followed and take precedence over the direct product
accounts policies and procedures. Instead they are incorrectly using FMR chapters
written for Defense Working Capital Fund accounts. The two Navy MRTFB sites should
charge all indirect costs, including utilities that cannot be attributed to a single customer
and indirect labor, to its institutional account. Such costs should not be subject to
customer reimbursement because they cannot be directly attributed to a single customer.




                                              5
Defense Test Resource Management Center Assessment
of Utility Charging and Navy Response
NAWC-AD has rebuffed DTRMC requests to comply with FMR 7000.14-R charging
requirements at the MRTFB site.

Defense Test Resource Management Center Assessment
In a September 22, 2006, memorandum and assessment final report, DTRMC cited
NAWC-AD for noncompliance with the FMR. Specifically, NAWC-AD had not
correctly billed utilities to MRTFB customers, other Federal Government customers,
commercial customers, and foreign military customers for the period from October 1,
2005, through April 21, 2006. DTRMC identified customer charges in direct product
accounts for the apportionment of utilities in buildings used by multiple customers and
the incremental budget and financial management labor costs as areas of concern.
DTRMC stated that the cause for the noncompliance was the Navy sites misinterpretation
of the FMR and lack of Service-level guidance for MRTFB activities located within a
Working Capital Fund organization. DTRMC requested that NAWC-AD take corrective
action by November 30, 2006.

Navy’s Response to Defense Test Resource Management Center
In a December 15, 2006, memorandum, the Commander, NAWC-AD responded to
DTRMC expressing nonconcurrence with the assessment conclusions stating that the
assessment report confused the question of what constituted a direct customer charge
with how those direct costs are allocated to customers. The commander stated that
FMR 11A/12 lists utilities as an example of a direct cost that, “when incremental and
directly attributable to the use of the facility or resource for testing under a particular
program, should be billed to the applicable customer order.” According to the
commander, once certain utility costs are determined to be incremental and directly
attributable to a particular program, the method for assigning the costs is subject to
guidance contained in the book Statement of Federal Financial Accounting Standards.
The commander also noted that FMR Volume 11B, “Reimbursable Operations, Policy
and Procedures-Working Capital Fund (WCF),” considers the Statement of Federal
Financial Accounting Standards as generally accepted accounting principles for Federal
agencies. He further stated that when direct metering to a specific customer is feasible,
customer charges are based on the metering. However, when a customer only occupied a
portion of the building, the customer charges were based on a common denominator
output, such as “square footage on the office space.” The commander stated that NAWC-
AD would continue to charge DoD customers in the forementioned manner.

Defense Test Resource Management Center’s Response
The Director, DTRMC responded to NAWC-AD on June 21, 2007, noting that the
assessment finding was based on DTRMC’s inability to determine how NAWC-AD
measured the charges to ensure they were directly attributed to that tester in the case of
utilities. In addition, the director disagreed with NAWC-AD’s interpretation of the
assessment stating there was no confusion with what constituted a direct cost.



                                              6
OIG Analysis of Naval Air Warfare Center-Aircraft Division
Charging Practices
Our review of the NAWC-AD practices concluded that the DTRMC’s interpretation
appeared to be correct. FMR 11A/12 describes direct costs as costs directly attributable
to the use of the facility or resource for testing under a particular program that are over
and above the institutional and overhead costs with respect to the facility or resource.
The direct costs chargeable to DoD Component users include labor, contract labor,
material, minor construction, utilities, equipment, supplies, items damaged or consumed
during testing, and any resource maintained for a particular program. The FMR further
states that indirect costs are overhead costs that cannot directly be attributed to a
particular customer, and these costs cannot be charged to DoD Component customers.
The two Navy MRTFBs should charge all indirect costs, including utilities that cannot be
precisely associated with a customer, and indirect labor, to its institutional account. Such
costs should not be subject to customer reimbursement because they cannot be directly
attributed to a single customer.

Financial Management Regulation Volume 11B, Chapter 1
The FMR, Volume 11B, Chapter 1, “Defense Working Capital Funds General Policies
and Requirements,” (FMR 11B/1) states that Defense Working Capital Funds consist of
activity groups that are managed by DoD Components for providing goods and services.
The DoD Component activity groups financed through Defense Working Capital funds
should be chartered under the fund. Volume 11B also states that Statement of Federal
Financial Accounting Standards shall be considered generally accepted accounting
principles for Federal agencies. Although the NAWC-AD and the NAWC-WD are under
the Navy Working Capital Fund charter, both ranges should follow the FMR 11A/12.

Inappropriate Naval Air Warfare Center Charges
In FY 2006 MRTFB customers at NAWC-AD were charged utility costs of
approximately $1.2 million (21 percent of total utility costs) and approximately
$0.2 million for indirect labor that can not be specifically attributed to a customer order.
In addition, NAWC-WD customers were inappropriately charged approximately
$1.8 million for utilities in FY 2007. NAVAIR officials at both locations provided us the
amounts charged to the customers and the methodology used to determine the costs. The
methodology was derived and incorporated from Defense Working Capital fund entity
requirements of FMR 11B/1. The Navy should charge these costs to institutional
accounts because the costs cannot be directly attributed to a single customer.

Conclusion
The NAWC-AD and NAWC-WD are not in full compliance with FMR 7000.14-R when
charging DoD customers utility costs for facilities used by multiple customers that cannot
be directly attributed to a single test order.




                                             7
l   Recommendation, Client Comments, and Our Response
A. We recommend that the Commander, Naval Air Systems Command direct the
Commanders of the Naval Warfare Center-Aircraft Division and the Naval Warfare
Center-Weapons Division to follow DoD Financial Management Regulation
7000.14-R, Volume 11A, Chapter 12, “Major Range and Test Facilities,” and
discontinue charging DoD Component customers for certain utilities and indirect
labor.

Navy Comments
Responding for the Commander, Naval Air Systems Command, the Assistant Secretary
of the Navy (Financial Management and Comptroller) agreed with the recommendation
and stated that the Commander, Naval Air Systems Command would direct the
Commanders of NAWC-AD and NAWC-WD to follow DoD FMR 7000.14-R, Volume
11A, Chapter 12. The Assistant Secretary stated that NAWC-AD and NAWC-WD
would alter their methodology for determining utility and labor charges such that DoD
Component users only reimburse those utility and labor costs readily identifiable with
their particular program. The Assistant Secretary also noted that the revised charging
practices that would strictly adhere to MRTFB guidelines would be in effect by
October 1, 2008.


Audit Response
Navy comments to Recommendation A. were responsive and conform to requirements;
thus no additional comments are needed.




                                           8
Finding B. Air Force Space Command’s
Launch Reimbursement Fee Structure
Two Air Force Space Command MRTFB sites were not charging test customers for space
launch support in a consistent manner. This occurred because the two MRTFBs were
hampered by unclear DoD and Air Force financial guidance in establishing a standard
reimbursement policy. For example, recent FMR changes made to comply with the
FY 2003 NDAA did not include like changes to the FMR chapter on commercial space
activities. As a result, Air Force Space Command officials did not establish a uniform
command billing policy for MRTFB reimbursement calculations for labor, material,
equipment, supplies, and utilities for commercial space users, so that reimbursement fees
are not consistently charged.

Commercial Space Activities
Air Force space launch operations on the East and West coasts provide services,
facilities, and range safety for the conduct of DoD, National Aeronautics and Space
Administration, and commercial launches. Title 15 of the United States Code, section
5807 authorizes DoD to allow commercial activities to use its space-related facilities
provided that DoD is reimbursed for its direct costs accrued in supporting the commercial
space activities.

Air Force 30th Space Wing
The 30th Space Wing headquartered at Vandenberg Air Force Base (AFB), California,
manages and supports space launch operations, including processing and launching space
boosters that carry DoD civilian and commercial satellites into polar orbits. The wing
provides support through operations at the Western Range, a geographic region
consisting of instrumentation sites along the California coast and extending to Hawaii.

Air Force 45th Space Wing
The 45th Space Wing headquartered at Patrick AFB, Florida, oversees the preparation and
launching of U.S. Government, civilian, and commercial satellites from Cape Canaveral
Air Force Station, Florida. The 45thSpace Wing launches payloads to its required orbits
on Delta II, Delta IV, and Atlas V booster rockets. The Atlas V and Delta IV Evolved
Expendable Launch Vehicles lift national military space assets along with civilian,
commercial, and scientific payloads into space.

Space Launch Contracting Environment
United Launch Alliance, a joint venture between The Boeing Company (Boeing) and
Lockheed Martin Corporation (Lockheed Martin) began operations in FY 2007 to
perform launch services for the U. S. Government. Prior to the United Launch Alliance
arrangement, the Air Force contracted with Boeing to support launches of the
Delta rockets and contracted with Lockheed Martin to support launching of the Atlas
rockets. For example, Lockheed Martin was awarded a firm-fixed-price contract in
February 2007 for $108 million for launch services for the Atlas V launch vehicle.


                                           9
Lockheed Martin expenses included fees paid to the Air Force MRTFB site for Air Force
support of range test customer launch services. Space Command’s Space and Missile
Systems Center at Los Angeles AFB acquires and oversees launches of Air Force and
DoD space systems and acts as the contracting activity for the United Launch Alliance.
United Launch Alliance facilities are located at the 45th Space Wing and the 30th Space
Wing.

Space Launch Customers
Two Air Force Space Command MRTFB sites are not charging test customers for space
launch support in a consistent manner. The two MRTFB sites are hampered by unclear
financial guidance in establishing a standard reimbursement policy to charge test
customers for space launch support. The primary reason for the variation in space launch
charging is inconsistent language between FMR 7000.14-R, Volume 11 A, Chapter12,
“Major Range and Test Facilities Bases,” (FMR Chapter 12) and Chapter 13, “DoD
Support to United States Commercial Space Activities,” (FMR Chapter 13). FMR
Chapter 12 states that direct costs “shall” include certain items, whereas FMR Chapter 13
states that direct costs “may” include certain items. Recent FMR Chapter 12 changes
(issued September 2005 and April 2008) made to comply with the FY 2003 NDAA did
not include like changes to FMR Chapter 13 (issued March 1997) on commercial space
activities. This resulted in inconsistent guidance and allowed for more MRTFB
discretion resulting in less uniform pricing.

DoD Component Customers
FMR Chapter 12 states that DoD Component users shall reimburse MRTFB activities for
direct costs identified to a particular program. Further, FMR Chapter 12 chargeable
direct costs are defined to include labor, contract labor (which includes a portion of
overhead and general and administrative burdens), material, minor construction, utilities,
equipment, supplies, items damaged/consumed during testing, and any resource or item
maintained for a particular program. FMR Chapter 12 states that indirect costs that fund
the overhead costs of the MRTFB such as maintaining, operating, or upgrading the
facility are not to be charged to the DoD component user.

Non-DoD (U.S. Government) Customers
FMR Chapter 12 also describes reimbursement policy for non-DoD Component users. 3
FMR Chapter 12 identifies non-DoD Component users including Federal, state, or local
government agencies and U.S. commercial users and states that MRTFB commanders
“shall” charge all direct costs associated with a customer order. Chargeable direct costs
incurred by non-Working Capital Fund activities for other than DoD Components shall
include all military personnel costs associated with a customer order.

Commercial Space Launch Customers
FMR Chapter 13 describes the reimbursable policy and procedures for the sale of DoD
support to U.S. commercial space activities. FMR Chapter 13 defines direct costs as the
3
 DoD FMR Chapter 12 states that the chapter does not apply to the commercial space launch activities of
the 30th and 45th Space Wings.


                                                   10
actual costs associated with a commercial launch effort “or” other commercial space
activity that would not be borne by DoD in the absence of the commercial launch effort
or other commercial activity. Such costs “may” include labor, material, utilities,
equipment, supplies, transportation, mission-specific construction, and any other
resources required, consumed, or damaged in providing Government support or services.
The table shows how some basic cost categories are assessed to customers based on the
definitions in FMR Chapters 12 and 13. The table provides a basic comparison of fees
for different types of customers at the MRTFB sites that provide space launch services.
                                 Reimbursement Guide
                                   FMR Chapter 12                                 FMR Chapter 13
Cost Category             DoD Customer     Non-DoD U.S.                          Commercial Space
                                           Government                            Launch Customer
                                           Customer
Direct labor-             Yes              Yes                                   Some1
civilian
Direct labor-             No                          Yes                        No
military
Indirect overhead         No                          Yes2                       No
1Space launch customer method direct   labor includes only employees wage or salary.
2MRTFB commanders shall charge an      appropriate amount of indirect costs.

45th Space Wing Reimbursable Fee Treatment
On August 10, 2007, the 45th Space Wing Commander proactively issued internal
guidance to clarify conflicting language between FMR Chapters 12 and 13. The
commander’s memorandum addressed charging fees to DoD customers and National
Aeronautics and Space Administration support contractors (beginning in FY 2008) for
MRTFB direct costs incurred for commercial space launches at Patrick AFB.
The charging policy change effectively increased charges for United Launch Alliance
launch services by including direct 45th Space Wing charging of Civil service labor,
material, equipment, supplies, utilities, and consumed items. Managers at the 45th Space
Wing stated that the estimated effect resulting from the revised internal guidance would
be to increase overall commercial launch services costs by 0.5 percent and increase billed
45th Space Wing reimbursable fees by 50 percent, or approximately $2.2 million per
year. 4

30th Space Wing Reimbursable Fee Treatment
Officials at the 30th Space Wing acknowledged the difficulty in charging some customers
in accordance with the unclear FMR guidance because some missions were considered
operational rather than test and evaluation. For example, some Delta II launches were

4
 The 45th Space Wing made seven commercial (Boeing and Lockheed Martin, or United Launch Alliance)
launches during FYs 2006 and 2007. Total 45th Space Wing billed costs to the commercial firms for the
seven launches was $4.53 million for FY 2006 and $4.63 million for FY 2007. However, our analysis of
available 45th Space Wing data indicated that the increase in Wing-reimbursable fees would be about
32 percent above past fee levels.


                                                   11
charged lower range fees than the rate for DoD customers for indirect and overhead
contractor costs under FMR Chapter 13 commercial space launch user fee policies
because 30th Space Wing considered the launches to be operational missions rather than
test missions. Officials advised us that, since January 2007, for the three remaining
Delta II missions and all other range customers, range fees would be charged per the
FMR Chapter 12 user fee requirements. The 30th Space Wing did not have a written
policy to implement the NDAA. However, financial management officials at the
30th Space Wing stated that the wing now uses the August 2007 45th Space Wing
guidance reimbursement policy.

Consistent Application of User Fees Needed
Air Force Space Command officials did not establish a uniform command billing policy
for MRTFB reimbursement calculations for labor, material, equipment, supplies, and
utilities for commercial space users, so that reimbursement fees are not consistently
applied between the 30th and 45th Space Wing locations.

Air Force Major Range Test Facility Base Fee Guidance
To facilitate implementation of the MRTFB charging policies required by the FY 2003
NDAA and FMR, the Director of Air Force, Test and Evaluation provided updated
guidance in a January 30, 2006, memorandum. The memorandum provided examples of
direct costs such as civilian labor that is project-specific, contractor labor for specific
customers, and project-specific travel costs and training. The memorandum also gave
examples of indirect costs including civilian labor non-project-specific, contractor labor
that is non-project-specific, and non-project-specific travel costs. Although the
memorandum was applicable to Air Force major commands, including Space Command,
the memorandum made no mention of commercial space launch services. The Space
Command has not provided subsequent guidance to MRTFB sites.

Rate Determination Procedures Vary
Air Force Space Command commercial space user reimbursement fees are not
consistently applied between the 30th and 45th Space Wing locations due to varying
procedures to determine rates for labor, material, equipment, supplies, utilities, and
consumed items. The Air Force Space Wing locations would benefit from receiving
guidance from headquarters on applying the NDAA requirements. This guidance should
interpret the FMR reimbursable fee changes and tailor it to Air Force activities so fees
could be more consistently determined. Air Force Space Wing financial management
personnel are knowledgeable about the reimbursement fee changes brought about by the
NDAA.

Air Force Space Command Action
One effect of the August 2007 45th Space Wing policy may be to increase United Launch
Alliance, Boeing, and Lockheed Martin costs for commercial space launch support
services. However, in a September 12, 2007, staff summary memorandum, the
Commander, Air Force Space Command agreed to a Space Command Comptroller
proposal to “grandfather” through 2011 the lower (pre-FY 2003 NDAA) range rates for


                                            12
existing fixed-price contracts under which United Launch Alliance, Boeing, or Lockheed
Martin perform launch services. The memorandum noted that United Launch Alliance
expressed concern about the increase in range fees for commercial launches for which
they have signed fixed-price launch contracts for launches through 2011. In addition, it
noted that the increased fees could result in further contract negotiations that could
adversely impact Space Command funding. However, the Commander, Air Force Space
Command agreed to approve an October 1, 2007, “implementation date for new
commercial launch user fee policies.” We believe that the Commander, Air Force Space
Command should supplement the staff summary memorandum by issuing a formal
reimbursement policy for space launch activities based on the existing FMR, Chapter 12,
“Major Range and Test Facilities.”

Conclusion
To improve the clarity of the reimbursable fee guidance, the FMR should be revised to
make FMR Chapters 12 and 13 more consistent regarding charging policy. Currently,
Chapter 13 says that direct costs “may include labor, material, utilities . . . ” while
Chapter 12 says that direct costs “shall include labor, material, utilities . . . ” Commercial
space launch customers should be charged based on the narrower definition of chargeable
costs in FMR Chapter 12. Revising FMR Chapter 13 to make it consistent with FMR
Chapter 12 would improve the implementation of the reimbursement fee policy.

Recommendations, Client Comments, and Our Response
B.1. We recommend that the Under Secretary of Defense (Comptroller) in
coordination with the Director, Defense Test Resource Management Center, revise
DoD Financial Management Regulation 7000.14-R, Volume 11A, Chapter 13, “DoD
Support to United States Commercial Space Activities,” to make consistent
reference to Public Law 107-314, Section 232, “Objective for Institutional Funding
of Test and Evaluation Facilities,” and the DoD Financial Management Regulation
7000.14-R, Volume 11A, Chapter 12, “Major Range and Test Facilities,” definitions
of direct and indirect costs.

Office of Under Secretary of Defense (Comptroller) Comments
Responding for the Under Secretary of Defense (Comptroller), the DoD Deputy Chief
Financial Officer agreed with the recommendation and stated that DoD FMR 7000.14-R,
Volume 11A, Chapter 13 has been revised to comply with the NDAA of 2003 and will be
consistent with Chapter 12. The DoD Deputy Chief Financial officer noted that the
revised Chapter 13 has been issued for electronic coordination with an expected
completion date of December 31, 2008.




                                             13
Audit Response
The comments from the Office of the Under Secretary of Defense (Comptroller) to
Recommendation B.1. were responsive and conform to requirement; thus no additional
comments are needed.


B.2. We recommend that the Commander, Air Force Space Command issue a
reimbursement policy for space launch activities based on DoD Financial
Management Regulation 7000.14-R, Volume 11A, Chapter 12, “Major Range and
Test Facilities.”

Air Force Comments
Responding for the Commander, Air Force Space Command, the Director, Air Force Test
and Evaluation stated neither agreement nor disagreement with the recommendation. The
Director stated that the Commander, Air Force Space Command issued a reimbursement
policy for space launch activities based on DoD FMR 7000.14-R, Volume 11A,
Chapter 12. The Director also stated that a June 22, 2008, memorandum supported an
Air Force Space Command Comptroller e-mail of September 26, 2007, that adopted
Chapter 12 policies for commercial space launch.

Audit Response
The Director, Air Force Test and Evaluation comments were only partially responsive to
the intent of the recommendation. The Director’s comments regarding a June 22, 2008,
memorandum appeared to be referring to a June 22, 2007, Air Force Deputy Assistant
Secretary Financial Operations (Financial Management) memorandum to the Space
Command Comptroller agreeing with a briefing rationale presented to the Deputy
Assistant Secretary’s office. However, the Air Force did not further identify the source,
date, or contents of the briefing, or support the issuance of an actual Space Command
policy for space launch activities based on DoD FMR 7000.14-R, Volume 11A,
Chapter 12. While we agree with the contents of the Air Force Space Command
Comptroller’s September 26, 2007, e-mail, we do not consider the e-mail to suffice as an
official Air Force Space Command policy for commercial space launches. Thus, we
request further comment from the Air Force regarding this recommendation.




                                           14
Finding C. Single-Use Facility at the Major
Range and Test Facility Bases
MRTFB testing equipment is, in some cases, left unused when the primary MRTFB
customer completes a project and leaves the facility, even though the test equipment can
be used by other MRTFB customers. This occurred because the prior FMR 7000.14-R,
Volume 11A, Chapter 12, “Major Range and Test Facilities,” policy restricted the
MRTFB from charging additional customers for usage of the equipment. As a result,
valuable test resources were wasted. However, in April 2008, the Under Secretary of
Defense (Comptroller) adopted the revision to the FMR 7000.14-R charge policy that
will allow MRTFB customers to get the benefit of new testing facilities, or newly
modified facilities without an MRTFB using institutional funds to maintain the facility
for new customers.

Single User Testing Equipment
MRTFB testing equipment was in many cases left unused when the primary MRTFB
customer completed a project and left the facility, even though the test equipment could
be used by other MRTFB customers. The AC-130U Gunship Program and the Massive
Ordinance Program are examples of testing equipment left unused at MRTFB sites when
the customer left the facility after completion of the project. 5 .




AC-130U Gunship Program
The AC-130U gunship is a heavily-armed, ground-attack airplane used by the Air Force
to provide close air support, air interdiction, and force protection. The testing of the AC-
130U prototype gunship program was performed by the 413th Flight Test Squadron, 46th
Test Wing at Eglin AFB, Florida. The AC-130U gunship tests required instrumentation
(valued at $90,000) to capture a large number of parameters. The AC-130U program
bought, used, and left the test equipment at the 46th Test Wing facility. The gunship
testing capability is still on hand and could be used by other customers. However, the
46th Test Wing is not able to collect future Operations and Maintenance support costs
from the DoD Component customers for future operation of the equipment at the facility
because the language in FMR 7000.14-R did not allow fees to be charged. Thus the
equipment will likely remain at the facility without being used.

The Massive Ordinance Penetrator Program
The Massive Ordinance Program is a 30,000-pound penetrating bomb with a global
positioning system and a navigation system that is designed to defeat hard and deeply
buried targets such as bunker and tunnel facilities. The Massive Ordinance Program is
funded and managed by the Defense Threat Reduction Agency, a DoD combat support
agency. Testing of the penetrator is being performed at the Army MRTFB activity at
White Sands Missile Range, New Mexico. The test consisted of a statically emplaced

5
 The examples were provided to us by DTRMC and were supplemented by our research. We did not
validate DTRMC-provided information.


                                               15
conventional weapon within a Defense Threat Reduction Agency test tunnel. The
Defense Threat Reduction Agency would like to leave the crane at the MRTFB activity at
the completion of testing. As noted above, prior FMR 7000.14-R language discouraged
continued operation of equipment. Thus the MRTFB activity would likely require the
customer to dismantle the crane and pay for its disposal.
A May 24, 2007, Director, DTRMC memorandum to the Secretaries of the Military
Departments recommended changes to FMR 7000.14-R to clarify how the MRTFB
charge policy would address test and evaluation investments. In October 2007, the Under
Secretary of Defense (Comptroller) and the Director, DTRMC recognized the
shortcomings of the prior FMR regarding single user test equipment by issuing a draft
revision to FMR Chapter 12. The proposed revision clarified the criteria for investments
paid for by a single customer and used by multiple customers.

Client Corrective Action
In April 2008, the Under Secretary of Defense (Comptroller) adopted the revision to
FMR Chapter 12 that clarifies the criteria for investments paid for by a single customer
and used by multiple customers. The revision to paragraph 120203.B.1.a.(1) states that,
“by mutual agreement, investments in new or existing test and evaluation may be funded,
in whole or in part, by one or more DoD customers of an MRTFB activity. This
agreement must delineate responsibilities for funding, staffing, operating, and
maintaining the facility and must be approved by all parties prior to obligation of any
funds for the project.”
The revision will correct the prior FMR Chapter 12 policy that restricted MRTFB
activities from charging additional customers for usage of equipment paid for by a single
program. After a single user testing project was completed, the MRTFB facility was left
with no process to collect support costs from the DoD Component customers for any
future use of the test equipment. Future test customers were effectively prohibited from
having the advantage of using the investment to support testing efforts as the MRTFB
activity would have been required by the previous FMR policy to self-finance future test
efforts or, conversely, dismantle the capability.

Conclusion
The Under Secretary of Defense (Comptroller) adopted the revision to FMR Chapter 12
to allow MRTFB to use a new or modified test facility constructed or enhanced by a
single-use customer once that customer leaves the range. This revision to the
FMR 7000.14-R charge policy will allow the 22 existing DoD MRTFB sites and
associated DoD and non-DoD customers to get the benefit of new testing facilities, or
new modifications to a facility without having to use its MRTFB institutional funds to
maintain the facility for other DoD customers. In addition, an MRTFB activity can
benefit from an asset paid for by the single-use customer that generates income from
reimbursable fees charged to other test users.




                                           16
Appendix A. Scope and Methodology
We performed this audit from July 2007 through June 2008 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We conducted site visits at four Army, two Navy, and four Air Force MRTFB sites to
determine whether the sites were in compliance with FMR 7000.14-R, Volume 11A,
Chapter 12. We also determined what internal controls were in place and executed by
MRTFB sites to implement reimbursable fee determinations and charging.

Five of the 10 MRTFB sites were previously assessed by DTRMC for compliance with
the FMR. The five MRTFB sites included the Army Aberdeen Test Center, Army White
Sands Missile Range, Navy NAWC-AD, Air Force 30th Space Wing, and the Air Force
Arnold Engineering Development Center. We visited the five MRTFB sites to determine
what action had been taken by management to address the observations or recommenda-
tions made in the reports to the Director. We requested documentation of corrective
actions taken by management in response to the recommendations. If management had
not taken corrective actions, we requested a written explanation of the reason(s) and
consulted with major command or Military Department headquarters test and evaluation
representatives.

At the DTRMC headquarters, we obtained and reviewed reimbursable fee assessment
reports and supporting documentation for nine MRTFB sites visited by DTRMC and
contractor personnel between March of 2006 and April of 2007. ∗ We identified similar
reimbursement fee issues through analysis and the discussion of assessment reports that
included report findings, recommendations, and MRTFB responses with DTRMC and
contractor personnel.

We also visited five MRTFB sites not reviewed by DTRMC. At these five MRTFB sites
we reviewed a total of 74 tests totaling approximately $104 million performed from
FY 2006 through FY 2007 as noted below:




∗
 DTRMC contracted with Whitney, Bradley, & Brown, LLC, Inc. to conduct the MRTFB assessments to
determine whether selected MRTFBs were compliant with FMR 7000.14-R, Volume 11A, Chapter 12
requirements.

                                               17
                             MRTFB Sites Assessed
                      Number of  Number of Tests                Dollar Amount of Tests
                      DoD Tests     Reviewed                           (Millions)
Yuma Test
                          290                  25                       $42.3
Center
High Energy
Laser Systems              33                  6                          3.6
Test Facility
NAWC-WD                  3185                  15                         1.4
45th Space Wing             3                   3                         2.3
46th Test Wing           1150                  25                        54.5
       Total             4661                  74                      $104.1

For the five MRTFB sites shown above, we obtained a list of DoD tests and judgmentally
selected tests with the highest dollar values from each range based on overall site
adherence to internal controls for charging customers and rate development. For each
test selected we determined whether the costs charged were valid and properly billed to
the test customer. We discussed any invalid charges with appropriate personnel. We
periodically accessed the accounting system, the process used to input customer charges
in the accounting system, and determined whether or not customer charges were correct.
In addition, we reviewed site-specific written procedures, training, and accounting
systems used in rate development process.

We visited the Air Force Audit Agency (AFAA) headquarters and base audit offices to
review and discuss AFAA reports (see prior coverage in Appendix B.) pertaining to rate
structures at Air Force MRTFB sites. We visited the Air Force Space and Missile
Command to obtain additional information on rates and contracts supporting space
launch services.

Review of Internal Controls
We determined that a material internal control weakness existed at two Navy MRTFB
sites as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. The Naval Warfare Center-Aircraft Division
(NAWC-AD) and the Naval Warfare Center-Weapons Division (NAWC-WD) were not
properly charging DoD customers indirect labor and utility costs. Implementing
Recommendation A. will improve reimbursable fee charging practices at the two Navy
MRTFB sites. We will provide a copy of this report to the senior Navy official
responsible for internal controls in the Department of the Navy.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                          18
Appendix B. Prior Coverage
During the last 5 years, the DoD IG and the AFAA have issued 11 reports discussing
reimbursable fees at MRTFBs. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted AFAA reports can be accessed at
https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

DoD IG
DoD IG Report No. D2007-036, “Report on Contracting Practices at the Major Range
and Test Facilities Base,” December 27, 2006
DoD IG Report No. D-2004-097, “The Central Test and Evaluation Investment
Program,” June 30, 2004
DoD IG Report No. D-2004-035, “Major Range and Test Facility Base,” December 8,
2003

AFAA
AFAA Report No. F2008-0002-FC3000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management,” January 31, 2008
AFAA Report No. F2008-0021-FBM000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management 30th Space Wing Vandenberg AFB,
CA,” January 17, 2008
AFAA Report No. F2008-0023-FDD000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management Air Armament Center Eglin AFB,
FL,” December 17, 2007
AFAA Report No. F2007-0063-FBS000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management 98th Range Wing Nellis AFB, NV,”
September 4, 2007
AFAA Report No. F2007-0050-FDD000, “McKinley Climatic Laboratory Customer
Classification and Funding Air Armament Center Eglin AFB, FL,” June 12, 2007
AFAA Report No. F2007-0039-FCI000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management 388th Fighter Wing Hill AFB, UT,”
May 15, 2007
AFAA Report No. F2007-0035-FCI000, “Air Force Major Range and Test Facility Base
Customer Rate and Institutional Cost Management Air Force Flight Test Center Edwards
AFB, CA,” May 9, 2007
AFAA Report No. F2006-0004-FC3000, “Implementation of the Fiscal Year 2003
National Defense Authorization Act, Major Range and Test Facility Base Funding
Process,” August 23, 2006


                                          19
Office of the Under Secretary of Defense (Comptroller)
Comments




                    Click to add JPEG file




                                   21
Click to add JPEG file




               22
Department of the Navy Comments




                  Click to add JPEG file




                                 23
Department of the Air Force Comments

                                             Final Report
                                              Reference




                  Click to add JPEG file




                                           Attachments not
                                           included




                                 24
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.
Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Michael E. Simpson
Carrie J. Gravely
George A. Leighton
Gloria J. Parker
Morgan R. Baxter
Meredith H. Johnson
